Also licensed in
Minnesota **
Montana ++
South Dakota AA

Patrick J. Ward
Lawrence E. King**^^
Constance N. Hofland**
John E. Ward++
Alyssa L. Lovas
Dennis R. Pathroff
Nathan J. Svihovec
ZUGER RIRIMIS & SMITH, PLLP
Since 1909

John A. Zuger
(1940-2006)
Lyle W. Kirmis
(1949-2020)
Thomas 0. Smith
(1944-2001)

316 North Fifth Street
P.O. Box 1695
Bismarck, ND 58502-1695
p: 701.223.2711
1: 701.223.9619
www.zkslaw.com

September 3, 2021
Clerk, Supreme Court of the U.S.
Supreme Court of the United States
1 First Street, NE
Washington, DC 20543

VIA FEDERAL EXPRESS

RE: John Pietsch, et al, Petitioners v. Ward County, North Dakota, et al.
No.322-8-

Dear Clerk:
My firm represents Respondents Ward County, a political subdivision of the State
of North Dakota, and the Board of County Commissioners for Ward County, North Dakota.
The Petition for a Writ of Certiorari in the above-entitled case was filed on August 12,
2021. The Respondents' brief in opposition to the Petition for a Writ of Certiorari is due
on or before September 15, 2021. Pursuant to Rule 30.4 of the Rules of the Supreme
Court, we request a thirty (30) day extension of time to file a brief in opposition to the
Petition for a Writ of Certiorari.
I am not currently a member of the Bar of the Supreme Court of the United States
and I acknowledge that the Respondents' Brief in Opposition must be filed by a Bar
member. I have submitted an application for admission to the Bar of this Court and I am
awaiting decision. I understand that the Court is currently in recess and that applications
are only processed during limited times. Additionally, Counsel received the Petition for a
Writ of Certiorari while on a family vacation. After counsel returned from vacation, counsel
was unable to communicate with Clients' claims representative, who was visiting his sick
mother out of state and subsequently attending her funeral. Upon the return of the claims
representative, a meeting of the Board of County Commissioners was scheduled to
discuss the Petition. A subsequent meeting is scheduled for September 7, 202

CEIVED

SEP - 2021
8FFICE OF THE CLERK
SUPREME COURT U.S.

Page 2
September 3, 2021

undersigned anticipates appearing as counsel of record in the event that his admission is
granted.
In light of the preceding and due to overlapping deadlines in state court matters,
counsel would request a thirty (30) day extension of time until October 15, 2021 to file a
brief in opposition to the Petition for a Writ of Certiorari.
Thank you for your attention to this matter.
Respectfully submitted,

John E. Ward

1

